dlo
DURAN LAW OFFICE
Jack Duran, Esq.
SENT VIA U.S. PRIORITY MAIL
August 6, 2019
United States Supreme Court
1 First Street
Washington, DC 20543
Clerk of the Court —
Cert Petitions - Request to Extend Time to Oppose Cert Pet.
Re:

19-131 Duanna Knighton v Cedarville Rancheria et al. Request for Forty-Five
(45) Day Extension of Time to File Opposition to Certiorari Petition

Dear Clerk of the Supreme Court:
Duran Law Office represents the Cedarville Rancheria of Northern Paiute Indians, the Tribal
Court and Judge Patricia Lenzi in the above entitled matter. I was recently notified by the Court
that Ms. Duanna Knighton had filed a Petition for Certiorari on July 23, 2019. The case was
placed on the Court's docket on July 26th, requiring the Tribe's Opposition to the Petition to be
filed on or before August 26th, 2019.
I have filed an admission application with the Court and have not yet been admitted, thus I am
unable to file a "Request for Extension of Time" pursuant to Rule 13 et seq., utilizing the Court's
electronic docketing system. Additionally, I was recently informed that due to a backlog of
briefs required to be prepared by my litigation support consultant, Becker Gallagher, they will
only be able to provide very limited proofing and preparation services due to the August 26,
2019 filing date.
The Ninth Circuit issued its decision on March 13, 2019. Petitioner requested a Panel Rehearing
and the Court Reissued the Opinion on April 24, 2019. Petitioner filed their Petition for
Certiorari on July 23, 2019.
Respondent, Cedarville Rancheria of Northern Paiute Indians et al, hereby requests a forty-five
(45) day extension of time to provide its response or otherwise oppose the Petition. The request
is reasonable and justified for the following reasons:
The Petition raises significant and complex issues related to federal Indian law and tribal
court jurisdiction

4010 Foothills Blvd, Suite 103, No. 98
Roseville, CA 95747
(916) 779-3316 (Office)
(916) 520-3526 (Fax)

RECEIVE!)
AUS 13 2019
•

E OF THE

CLERK
E CouRT

The facts and law are complicated and extra time is needed to draft a simple and direct an
opposition brief as possible
The extended filing date will provide the opportunity for me to be admitted to the court, sign up
for the Court's electronic docketing system and provide my consultant the opportunity to assist
me with filing an appropriately proofread, cited and edited brief to the Court.
Very

fully yours,

an, Jr. Esq.
Law Office
cc:

Petitioner, Duanna Knighton's Counsel, Patrick. Deedon
Cedarville Rancheria of Northern Paiute Indians

4010 Foothills Blvd, Suite 103, No. 98
Roseville, CA 95747
(916) 779-3316 (Office)
(916) 520-3526 (Fax)

